IN THE SUPREME COURT OF THE UNITED STATES

TNT CRANE & RIGGING, INC.
Petitioner
vs.

No:

20-0914

OCCUPATIONAL SAFETY AND HEALTH REVIEW
COMMISSION, ET AL.
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
February 08, 2021
cc:

See Attached List

TODD BRIAN SCHERWIN
FISHER & PHILLIPS, LLP
444 S. FLOWER ST
STE 1590
LOS ANGELES, CA 90071
JONATHAN M. BERNSTEIN
GOLDBERG SEGALLA LL P
8SOUTHWOODS BOULEVARD,
SUITE 300
ALBANY, NY 12211
MICHAEL RUBIN
GOLDBERG SEBOLLA
665 MAIN STREET
BUFFALO, NY 14203-1425

